Memorandum from the Office of the Inspector General



September 23, 2010

Robert M. Deacy, Sr., LP 5D-C

FINAL REPORT – INSPECTION 2009-12910-02 – PEER REVIEW OF DIKE C
BUTTRESSING



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and/or actions taken, have been included in
the report. No further action is needed.

The Office of the Inspector General (OIG) contracted with Marshall Miller & Associates
Inc., to conduct this review. All work pertaining to this review was conducted by Marshall
Miller. The OIG relied on Marshall Miller’s processes and procedures for quality control in
the attached report. Information contained in this report may be subject to public
disclosure. Please advise us of any sensitive information in this report that you
recommend be withheld.

If you have any questions, please contact Gregory R. Stinson, Project Manager, at
(865) 633-7367 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 785-4810. We appreciate the courtesy and cooperation received from your staff
during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

GRS:NLR
Attachment
cc: See page 2
Robert M. Deacy, Sr.
Page 2
September 23, 2010



cc (Attachment):
      Robert J. Fisher, LP 3K-C
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Stephen H. McCracken, KFP 1T-KST
      Annette L. Moore, LP 3K-C
      Richard W. Moore, ET 4C-K
      David R. Mould, WT 7B-K
      Anda A. Ray, WT 11A-K
      Emily J. Reynolds, OCP 1L-NST
      Joyce L. Shaffer, WT 9B-K
      John M. Thomas III, MR 3A-C
      Robert B. Wells, WT 9B-K
      Wendy Williams, WT 9B-K
      OIG File No. 2009-12910-02
            Peer Review of Stantec Consulting Services, Inc.
          Dike C Buttress, Stage 1 Construction – Segment “D”
                              Dated September 23, 2010

           Tennessee Valley Authority Kingston Fossil Plant (KIF)
                           Harriman, Tennessee




                                                                     Prepared for:




                                                         TVA Office of the Inspector General
                                                              Knoxville, Tennessee



                                                                     Prepared by:




                                                               Project No.: TVA106-08

                                                                 September 23, 2010




Marshall Miller & Associates, Inc.
ENERGY/ENVIRONMENTAL/ENGINEERING/CARBON MANAGEMENT

5900 Triangle Drive
Raleigh, NC 27617
Tel (919) 786-1414 • Fax (919) 786-1418
www.mma1.com
                                                                     Peer Review of Stantec Consulting Services, Inc.
                                                                 Dike C Buttress, Stage 1 Construction – Segment “D”
                                                                 Kingston Fossil Plant - Harriman, Roane County, TN
                                                         Tennessee Valley Authority - Office of the Inspector General
                                                   September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                             • Page 1


Item 1:       TITLE PAGE
Title of Report

Peer Review of Stantec Consulting Services, Inc. (Stantec)
Dike C Buttress, Stage 1 Construction – Segment “D”
Supporting Stability Calculations, Drawings, Technical Specifications, and Quality Control Plan
Tennessee Valley Authority Kingston Fossil Plant (KIF) – Harriman, Roane County, TN

Project Location

The project site is located in Harriman, Roane County, Tennessee, and is situated on a peninsula
formed by the confluence of the Emory River and the Clinch River.

Effective Date of Report

September 23, 2010

Qualified Persons



___________________________                         ___________________________
William S. Almes, P.E.                              Christopher J. Lewis, P.E.
TVA OIG Contract Manager                            Principal Engineer
Senior Engineer & Director of                       D’Appolonia, Engineering Division of
Geotechnical Services                               Ground Technology, Inc.
Marshall Miller & Associates, Inc.



                                                    ___________________________
                                                    Aaron J. Antell, P.E.
                                                    Project Engineer
                                                    D’Appolonia, Engineering Division of
                                                    Ground Technology, Inc.


___________________________
Edmundo J. Laporte, P.E.
Senior Engineer
Marshall Miller & Associates, Inc.
                                                                       Peer Review of Stantec Consulting Services, Inc.
                                                                   Dike C Buttress, Stage 1 Construction – Segment “D”
                                                                   Kingston Fossil Plant - Harriman, Roane County, TN
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                     September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 2


Item 2:        EXECUTIVE SUMMARY
       The Tennessee Valley Authority (TVA) Office of the Inspector General (OIG) retained
Marshall Miller & Associates, Inc. (Marshall Miller) to conduct a peer review of the Stantec
Consulting Services, Inc. (Stantec) stability calculations and construction documents for the
Stage 1 Construction – Segment “D” portion of the Dike C Buttress at the Kingston Fossil Plant.
It is Marshall Miller’s opinion that the planned Stage 1 Construction – Segment “D” portion of
the Dike C Buttress does produce stability enhancements that are sufficient based on Stantec’s
drained slope stability analyses. Marshall Miller also believes that the Stage 1 Construction will
satisfactorily address issues of “piping”/internal erosion, surface erosion, and scour over those
Dike C areas that will be covered with an aggregate filter and be buttressed. However, Marshall
Miller found that the specific design bases/criteria, relative improvement in stability, and
reasoning for certain variations in the buttress configuration were not well documented within
the materials that were supplied for review.

Marshall Miller’s key observations from reviewing the documents related to the Segment “D”
portion of the Dike C Buttress at the Kingston Fossil Plant are as follows:

           1. A direct comparison of slope stability factors of safety for the existing and
               buttressed dike configurations at critical sections was not performed, so the
               relative improvement in stability afforded by the Stage 1 Buttress Construction is
               not clearly documented.

           2. The design shows a transition to steeper configuration of the outslope of the
               buttress between two points that will diminish the stabilization benefits of the
               buttress.

           3. The Stage 1 Buttress Construction was only evaluated presuming drained
               conditions, so the stability situation under possible load cases that could prompt
               undrained behavior of the dike and foundation materials (rate of construction,
               rapid drawdown, and earthquake/seismic cases) is unknown at this time.
                                                                      Peer Review of Stantec Consulting Services, Inc.
                                                                  Dike C Buttress, Stage 1 Construction – Segment “D”
                                                                  Kingston Fossil Plant - Harriman, Roane County, TN
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                    September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 3


       Marshall Miller believes that the planned Stage 1 Buttress Construction does produce
stability enhancements and also addresses issues of “piping”/ internal erosion, surface erosion,
and scour in buttressed areas. Therefore, the significance of the above Marshall Miller
observations and recommendations is dependent on the approach and conservatism that is
applied in the design of the final closure plan.

Management’s Response to Draft Report

To address this report, TVA management had Stantec review and respond to the findings of this
report. TVA management and its contractor provided addition information on the findings and
recommendations in this report. For complete responses, please see appendices A – TVA
Transmittal Memo and B – Stantec’s Response.

Marshall Miller Assessment of Management’s Comments to Draft Report

Marshall Miller concluded that the additional information provided adequately addressed the
concerns and recommendations identified in the report.
                                                                                          Peer Review of Stantec Consulting Services, Inc.
                                                                                      Dike C Buttress, Stage 1 Construction – Segment “D”
                                                                                      Kingston Fossil Plant - Harriman, Roane County, TN
                                                                              Tennessee Valley Authority - Office of the Inspector General
                                                                        September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                  • Page 4


Item 3:           TABLE OF CONTENTS

ITEM 1:           TITLE PAGE ........................................................................... 1 
ITEM 2:           EXECUTIVE SUMMARY ......................................................... 2 
ITEM 3:           TABLE OF CONTENTS ............................................................ 4 
ITEM 4:           INTRODUCTION...................................................................... 5 
ITEM 5:           MARSHALL MILLER PROJECT TEAM .................................. 6 
ITEM 6:           SCOPE OF SERVICE................................................................ 7 
ITEM 7:           BACKGROUND ....................................................................... 8 
ITEM 8:           REVIEW .................................................................................. 9 
         8.1.     FINDINGS..................................................................................................................9 
         8.2.     RECOMMENDATIONS .............................................................................................11

APPENDICIES

MEMORANDUM DATED AUGUST 31, 2010, FROM ROBERT M. DEACY
TO ROBERT E. MARTIN ........................................................................................ APPENDIX A

MEMORANDUM DATED AUGUST 26, 2010, FROM THOMAS CRILLY
AND DON W. FULLER II TO JOHN KAMMEYER .............................................. APPENDIX B
                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                                    Dike C Buttress, Stage 1 Construction – Segment “D”
                                                                    Kingston Fossil Plant - Harriman, Roane County, TN
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                      September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 5


Item 4:        INTRODUCTION
       The TVA OIG retained Marshall Miller to conduct a peer review of the slope stability
analyses and construction documents for the Stage 1 Construction – Segment “D” portion of the
Dike C Buttress at the Kingston Fossil (KIF) Plant, Harriman, Roane County, Tennessee.
Stantec of Lexington, Kentucky designed the stabilization plan and developed the corresponding
construction documents. The Stage 1 Construction is divided into four segments designated
Segments A, B, C and D. Segment “D” was selected for review because it is the first buttress
segment under construction. The buttress segments are similar in configuration, materials, and
purpose, so findings related to Segment “D” apply to all segments of the Stage 1 Construction.

       Marshall Miller reviewed the Stantec stability calculations, Drawings (i.e., “Plans for
Construction”), Technical Specifications, and Quality Control Plan (including Addendum 001)
for the Stage 1 Construction – Segment “D” portion of the Dike C Buttress. Marshall Miller
understands that Stantec did not prepare a formal engineering or design report to document the
assumptions and methods for designing the Dike C buttress, and to present a direct comparison
of slope stability factors of safety for the existing and buttressed dike configurations at critical
sections (pre- and post-construction configurations). Regardless, we were able to rely on the
above-mentioned construction documents and Stantec slope stability analyses to formulate our
findings and recommendations.

       This report presents the following:

              Marshall Miller Project Team;

              Description of Marshall Miller’s scope of service;

              Background information for the Kingston Fossil Plant and Dike C; and

              Findings and recommendations from Marshall Miller’s peer review of the slope
               stability analyses and construction documents prepared by Stantec.
                                                                               Peer Review of Stantec Consulting Services, Inc.
                                                                           Dike C Buttress, Stage 1 Construction – Segment “D”
                                                                           Kingston Fossil Plant - Harriman, Roane County, TN
                                                                   Tennessee Valley Authority - Office of the Inspector General
                                                             September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                                       • Page 6


Item 5:           MARSHALL MILLER PROJECT TEAM
         Marshall Miller, an employee-owned and Engineering News-Record Magazine (ENR)
top 500 company, began offering geologic services to the mining industry in 1975. Marshall
Miller provides a range of services to the mining, utility, financial, governmental, and legal
industries. Marshall Miller employs nearly 200 engineers, geologists, scientists and other
professionals who work from regional offices in ten states.

         Marshall Miller retained D’Appolonia, Engineering Division of Ground Technology,
Inc., of Monroeville, Pennsylvania, for their additional expertise with tailings impoundments and
dams, problem ground conditions, and forensic investigations.

         The Marshall Miller Project Team is comprised of the following professionals:

                 Mr. Peter Lawson – Executive Vice President & Principal-in-Charge.

                 Mr. William S. Almes, P.E. – Director of Geotechnical Services & Contract
                  Manager for TVA OIG.

                 Mr. Edmundo J. Laporte, P.E. – Senior Engineer.

                 Mr. William M. Lupi, P.E. – Project Engineer.

                 Mr. Richard G. Almes, P.E. – Principal Geotechnical Engineer.

                 Mr. Christopher J. Lewis, P. E. – Principal Geotechnical Engineer.1

                 Mr. Aaron J. Antell, P.E. – Project Engineer.1




1
    Christopher J. Lewis, P.E. and Aaron J. Antell, P.E. are Geotechnical Subconsultants of Marshall Miller and are
    employed by D’APPOLONIA, ENGINEERING DIVISION OF GROUND TECHNOLOGY, INC., Monroeville,
    Pennsylvania.
                                                                      Peer Review of Stantec Consulting Services, Inc.
                                                                  Dike C Buttress, Stage 1 Construction – Segment “D”
                                                                  Kingston Fossil Plant - Harriman, Roane County, TN
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                    September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 7


Item 6:        SCOPE OF SERVICE
       Marshall Miller was engaged by OIG to provide a technical peer review of the
construction documents and supporting slope stability analyses developed by Stantec for the
Stage 1 Construction – Segment “D” portion of the Dike C Buttress at the KIF Plant. Marshall
Miller also performed a cursory review of electronic files for stability calculations performed by
Stantec. Marshall Miller did not perform a parallel study or confirmatory design calculations for
the Stage 1 stabilization plan developed by Stantec. The specific Dike C Buttress, Stage 1
Construction – Segment “D” documents reviewed by Marshall Miller included:

          Plans for Construction (Drawing Package – Issued for Construction), dated
           November 18, 2009;

          Quality Control Plan, dated November 18, 2009;

          Addendum 1 to Quality Control Plan, dated February 16, 2010; and

          Technical Specifications, dated November 18, 2009.

       In providing the professional services to compile this report, Marshall Miller used
generally accepted engineering principles and practices to develop findings and
recommendations. Marshall Miller reserves the right to amend and supplement this report based
on additional information. If OIG, TVA, TVA’s consultants, or others discover additional
information pertinent to the engineering performance of the existing Dike C or the planned
buttress at the KIF fossil plant, Marshall Miller requests the opportunity to review the
information for relevance to Marshall Miller’s findings and recommendations herein.
                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                                    Dike C Buttress, Stage 1 Construction – Segment “D”
                                                                    Kingston Fossil Plant - Harriman, Roane County, TN
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                      September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 8


Item 7:        BACKGROUND
       Dike C at the KIF plant consists of the existing, approximately 5,600-foot long, two-
tiered dike embankment (upstream staged configuration) located at the southern and southeastern
limit of the coal combustion byproducts disposal facility. This embankment consists of an initial
starter clay dike constructed on alluvial foundation soils, in most sections raised slightly with
constructed ash, and a raised clay dike constructed by upstream techniques over impounded,
hydraulically placed/sluiced ash. The initial starter dike was constructed in the 1950s, which
provided an embankment crest at approximately Elevation (El.) 748 feet above mean sea level
(AMSL). Past TVA drawings and reports indicate that portions of the Dike C starter
embankment are founded over a layer of broken shale within the Watts Bar Reservoir. The shale
was encountered during the subsurface exploration phase of the Stantec study and these findings
are depicted in two of the geotechnical cross-sections.

       The raised clay dike, reportedly constructed in the 1970s, increased the Dike C crest to
El. 765. The raised dike was constructed of clayey soils, partly on the upstream face of the
starter dike and out over hydraulically placed ash. According to available design drawings,
neither dike stage contains regular internal drains, relief wells, or other specific features for
seepage control.

       TVA engaged Stantec to develop a stabilization plan for Dike C in response to slope
stability concerns identified in the report by Stantec titled: “Report of Geotechnical Exploration
and Slope Stability for Dike C [existing conditions], Tennessee Valley Authority Kingston Fossil
Plant (KIF),” (KIF Dike C Report) dated August 3, 2009. Stantec developed a staged/phased
stabilization plan that generally consists of constructing an aggregate buttress against the
riverside (downstream slope) of Dike C. Stage 1 of the stabilization plan includes buttress
construction below El. 754, which is slightly above the lower-most downstream bench on Dike
C. The Stage 1 Construction is divided into four segments designated Segments A, B, C and D.
Buttress construction commenced with Segment D, which consists of the northern-most 2,200
feet of Dike C, from STA 138+00 to STA 160+00.
                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                                    Dike C Buttress, Stage 1 Construction – Segment “D”
                                                                    Kingston Fossil Plant - Harriman, Roane County, TN
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                      September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 9


Item 8:        REVIEW
       Marshall Miller reviewed the Stantec slope stability calculations, Drawings (i.e., “Plans
for Construction”), Technical Specifications, and Quality Control Plan (including Addendum
001) applicable to the Stage 1 Construction – Segment “D” portion of the Dike C Buttress. In
general, it is Marshall Miller’s opinion that the planned Stage 1 Construction – Segment “D”
portion of the Dike C Buttress does produce stability enhancements and also addresses issues of
“piping”/ internal erosion, surface erosion, and scour in buttressed areas. However, Stantec did
not supply information that clearly indicates the design bases/criteria, relative improvement in
stability, and reasoning for certain variations in the buttress configuration.

8.1.   FINDINGS
       In Marshall Miller professional opinion the Stantec, slope stability analyses presuming
drained conditions indicate that the Stage 1 Construction will satisfactorily enhance the static
stability of Dike C. In addition, the filter, drainage, and erosion-resistant materials specified by
Stantec for the planned aggregate buttress address issues of “piping”/ internal erosion, surface
erosion, and scour in buttressed areas. However, Marshall Miller did note that the specific
design bases/criteria, relative improvement in stability, and reasoning for certain variations in the
buttress configuration were not well documented within the materials that were supplied for
review. Specifically they noted that:

              Stantec did not prepare a direct comparison of slope stability factors of safety for
               the existing and buttressed dike configurations at critical sections, so the relative
               improvement in stability afforded by the Stage 1 Buttress Construction is not
               clearly documented.

              The proposed buttress configuration includes a transition from an outslope at
               6H:1V at STA 147+00 to an outslope of 4H:1V at STA 145+50. It is unclear why
               the outslope of the buttress is transitioned to a steeper configuration at this
               location. Based on Marshall Miller’s review of the subsurface conditions, there is
                                                           Peer Review of Stantec Consulting Services, Inc.
                                                       Dike C Buttress, Stage 1 Construction – Segment “D”
                                                       Kingston Fossil Plant - Harriman, Roane County, TN
                                               Tennessee Valley Authority - Office of the Inspector General
                                         September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                  • Page 10


    no appreciable improvement in the existing conditions from STA 147+00 to STA
    145+50 that would justify this change in configuration.

       o Based on the Plans for Construction prepared by Stantec, Marshall Miller
           overlaid the proposed buttress configuration at STA 138+00 and STA
           149+00 onto the stability cross-sections at STA 138+27 and STA 149+14,
           respectively, which were taken from the Stantec “Report of Geotechnical
           Exploration and Slope Stability for Dike C [existing conditions]” dated
           August 3, 2009. The planned buttress at STA 138+27 (4H:1V outslope)
           does not extend beyond the deep-seated failure surface below the toe of
           the existing dike; whereas, the buttress at STA 149+14 (6H:1V outslope)
           does extend beyond the deep-seated failure surface below the toe of the
           dike. Based on this simplistic comparison, it does not appear that the
           change in buttress configuration is justified based on stability
           considerations.

   Stantec did not perform an undrained slope stability analysis for the buttress
    construction case, or other load cases that could prompt undrained behavior of the
    dike and foundation materials (rapid drawdown and earthquake/seismic cases).
    With regard to the construction case and associated rate of loading issues, the
    starter dike is constructed of clayey materials and, in Marshall Miller’s
    professional opinion, is subject to undrained loading during buttress construction.
    Also, subsurface profiles in the previously referenced Stantec geotechnical report
    indicate zones and layers of clayey material within the foundation, which could
    impede drainage and contribute to undrained loading of even the silty sand to
    sandy silt foundation soils.
                                                                      Peer Review of Stantec Consulting Services, Inc.
                                                                  Dike C Buttress, Stage 1 Construction – Segment “D”
                                                                  Kingston Fossil Plant - Harriman, Roane County, TN
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                    September 23, 2010• Prepared by Marshall Miller & Associates, Inc.
                                                                                                             • Page 11


8.2.   RECOMMENDATIONS
       Based on the findings described above, Marshall Miller recommends that Stantec
       consider:

             Documenting the relative improvement in stability afforded by the Stage 1
              Buttress Construction, based on a direct comparison of slope stability factors of
              safety for the existing and buttressed dike configurations at critical sections.

             Reconfigure the outslope from STA 147+00 to STA 145+50 to a consistent
              6H:1V.

             Performing an undrained evaluation of the end-of-construction conditions and
              applicable rapid drawdown scenarios.
APPENDIX A
 Page 1 of 1
APPENDIX B
Page 1 of 28
APPENDIX B
Page 2 of 28
APPENDIX B
Page 3 of 28
APPENDIX B
Page 4 of 28
APPENDIX B
Page 5 of 28
APPENDIX B
Page 6 of 28
APPENDIX B
Page 7 of 28
APPENDIX B
Page 8 of 28
APPENDIX B
Page 9 of 28
APPENDIX B
Page 10 of 28
APPENDIX B
Page 11 of 28
APPENDIX B
Page 12 of 28
APPENDIX B
Page 13 of 28
APPENDIX B
Page 14 of 28
APPENDIX B
Page 15 of 28
APPENDIX B
Page 16 of 28
APPENDIX B
Page 17 of 28
APPENDIX B
Page 18 of 28
APPENDIX B
Page 19 of 28
APPENDIX B
Page 20 of 28
APPENDIX B
Page 21 of 28
APPENDIX B
Page 22 of 28
APPENDIX B
Page 23 of 28
APPENDIX B
Page 24 of 28
APPENDIX B
Page 25 of 28
APPENDIX B
Page 26 of 28
APPENDIX B
Page 27 of 28
APPENDIX B
Page 28 of 28
